A

No.

0-839 V.'1

Supreme Court, U S~
FILED

JUN 1 7 2021
OFFICE OF THE Cl FR*

IN THE
SUPREME COURT OF THE UNITED STATES

GARY L. WORKMAN
PETITIONER
V.
WARDEN JASON KENT, et al.
RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
THE U.S. FIFTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

GARY L. WORKMAN
PROSE
DIXON CORRECTIONAL INSTITUTE
P.O. BOX 788/UNIT II: DORM - 12
JACKSON, LA 70748
PHONE # 225-634-1200

QUESTIONS PRESENTED
Was Petitioner denied his right to compel witnesses when counsel failed to subpoena
an expert that had found exculpatory evidence and this evidence was found in the
police and prosecutor files?
Was counsel’s performance deficient when counsel failed to examine the police and
prosecutor files and conduct an independent investigation after a retained expert
found exculpatory evidence in these files and did this deficient performance prejudice
Petitioner?
Was Petitioner prejudiced where counsel’s deficient performance rendered the state
court record insufficient and precluded from federal review and can Petitioner
overcome the bar of Harrington v. Richter and Cullen v. Pinholster, when it is this
ineffectiveness of counsel that obstructed the preservation and conservation of the
state court record?
If the State utilizes evidence outside the state court record, is the bar of Harrington
v. Richter and Cullen v. Pinholster, overcome under 28 §2254(d)(2) when the use of
such evidence resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court
proceeding.
Do voir dire statements by the defense open the door to allow the State to bypass fair
notice and the balancing test of relevancy concerning the introduction of inadmissible
evidence under state and federal law?

11

LIST OF PARTIES
□ All parties appear in the cation of the case on the cover page.
E All parties do not appear in the cation of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is subject of this
petition is as follows:

District Attorney, Paul D. Connick, Jr.
24th Judicial district, Louisiana
200 Derbigny St. 5th Floor
Gretna, LA 70053

Warden Jason Kent
Dixon Correctional Institute
5568 Hwy 68
Jackson, LA 707748

RELATED CASES
Workman v. Kent, NO. 20-30501, U. S. Court of Appeals for the Fifth Circuit.
Judgment. (April 1, 2021.).
Workman v. Kent, NO. 18-13175 Section "H" (2) (E.D. La., July 22, 2020).
Workman v. Kent, NO. 18-13175 Section "H" (2)
Recommendation. (USDC, E.D. La, September 6, 2019).

(Magistrate

Report and

State v. Workman, NO.12-2204 Louisiana 24th Judicial District Court 255 So.3d 697,
2018 La. LEXIS 2853 (La. Supreme Court, No. 2017-KH-0985, Oct. 29, 2018).
State v. Workman, NO. 12-2204 Louisiana 24th Judicial District Court, 255 So.3d 579,
2018 La. LEXIS 2853 (La. Supreme Court, No. 2017-KP-0716, Oct. 29, 2018).
State u. Workman, NO. 12-2204 Louisiana 24th Judicial District Court. (La. 5th Cir.
17-KH- 134, April 4, 2017)
State v. Workman, NO. 12-2204 Louisiana 24th Judicial District Court, (February 1,
2017)
State u. Workman, NO. 12-2204 Louisiana 24th Judicial District Court, 255 So.3d 579,
2018 La. LEXIS 2853 (La. Supreme Court, No. 2015-KO- 0909, March 24, 2016).
State v. Workman, NO. 12-2204 Louisiana 24th Judicial District Court. (La. 5th Cir.
14-KA- 559, April 15, 2015).

in

TABLE OF CONTENTS
QUESTIONS PRESENTED

11

LIST OF PARTIES

111

RELATED CASES

iii

TABLE OF CONTENTS

IV

v

INDEX TO APPENDIXES
TABLE OF AUTHORITIES

Vl-Vll

OPINIONS BELOW.

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2-4

STATEMENT OF PROCEEDINGS

5-6

STATEMENT OF THE CASE

6-7

REASONS FOR GRANTING THE WRIT

7

OVERTURE

7

CLAIMS

7
8-20

PERSUASIONS
CONCLUSION

20

PROOF OF SERVICE

21

IV

INDEX TO APPENDIXES
APPENDIX A: The opinion of the U.S. Fifth Circuit Court of Appeals and denial of
Certificate of Appealability is attached as Appendix “A”. No. No. 20-30501.
APPENDIX B: The Order of the United States Western District Court denying a
Certificate of Appealability is attached hereto as Appendix “B”. No. 1813175 Section "H" (2).
APPENDIX C: The Report and Recommendation by the U. S. Magistrate Judge in
the Eastern District of Louisiana is attached as Appendix “C”, No. 18-13175 Section
"H" (2)
APPENDIX D: Louisiana Supreme Court order denying post-conviction application
for relief is attached as Appendix “D”. NO. So.3d 697, 2018 La. LEXIS 2853.
APPENDIX E: Louisiana Supreme Court order denying post-conviction application
for relief is attached as Appendix “E”. NO. So.3d 579, 2018 La. LEXIS 2853.
APPENDIX F: Opinion of the Louisiana Fifth Circuit Court of Appeals denying writ
of review of Post-Conviction Application is attached as Appendix “F”. NO. 17-KH134.
APPENDIX G: Opinion of the Twenty-fourth Judicial District Court denying PostConviction Relief is attached as Appendix “G”. NO. 12-2204. (February 1, 2017).
APPENDIX H: Opinion of the Louisiana Supreme Court denying Certiorari is
attached as Appendix “H”. NO. 2015-KO-0909. State u Workman, 190 So. 3d 1189.
(March 24, 2016).
APPENDIX I: Opinion of the Louisiana Fifth Circuit Court of Appeals, affirming the
conviction, remanding to correct commitment order is attached as Appendix “I”. NO.
14-KA-559. State v Workman, 170 So. 3d 279. (April 15, 2015.)
v

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Buck u. Davis, 137 S. Ct. 759, 776, 197 L. Ed. 2d 1 (2017)

18

Cullen v. Pinholster, 563 U.S. 170, 131 S. Ct. 1388, 179 L. Ed. 2d 557 (2011)

17

Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674(1984)...20
Taylor v. Vannoy, 2018 U.S. LEXIS 4709 (U.S., Oct. 1, 2018)

18

United States v Campbell, 738 F. Supp. 2d 960, 964, (8th Cir. August 26, 2010

15

U.S. v Duke; 2013 U.S. Dist. LEXIS 11752

15

Washington v Texas, 388 U. S. 14 at 17, 87 S. Ct. 1920

19

York v. Ducart, 2018 U.S. App. LEXIS 14571, (U. S. 9th Cir., June 1, 2018)

14

STATUTES AND RULES
18 USC §2252.
28 U. S. C. § 1254(1).
28 U. S. C. § 1257(a).
28U.S.C. 2254 (a).
Fed. R. Evid. 403
Federal Rule of Civil Procedure 5(a), 10(c), 81(a) (2).
U. S. Constitutional Amendment VI.
U. S. Constitutional Amendment XIV. Sec. 1.
Louisiana Constitution Art. I, § 2.
Louisiana Constitution Art. I, § 13.
Louisiana Constitution Art. I, § 16.
vi

La. Const. Art. 1, 9.
La. C. of Crim. P., Art. 731.
Louisiana Constitution Art. I, § 19.
LA. R.S 14:27.42.
LA. R.S 14:81.1.
LA. C. Cr. P. 403.
OTHER:
VOLUMES:
ONE: Appendixes.
TWO: State Review.
THREE: § 2254.
FOUR: Pertinent Transcripts.

VII

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
IS For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix “A” to
the petition and is
IS not yet published or reported.
The opinion of the United States district court appears at Appendix “B” to
the petition and is
IS Reported at Workman v Kent, 2020 U.S. Dist. LEXIS 129817, U. S. District
Court for the Eastern District of Louisiana. (July 22, 2020).
IS! For cases from state courts:
IS The opinion of the highest state court to review the merits appears at
Appendix “D “to the petition and is
IS Reported at So.3d 697, 2018 La. LEXIS 2853. and So.3d 579, 2018 La. LEXIS
2853.
IS The opinion of the Louisiana Fifth Circuit Court of Appeals appears at
Appendix “F’ to the petition and is unpublished.
IS The opinion of the highest state court to review the merits appears at
Appendix “H “to the petition and is
IS Reported at State v Workman, 190 So. 3d 118.
IS The opinion of the Louisiana Fifth Circuit Court of Appeals appears at
Appendix “I” to the petition and is reported at State v Workman, 170 So. 3d
279

1

JURISDICTION
The date on which the United States Fifth Circuit Court of Appeals decided
the case was April 1, 2021 and the jurisdiction of this Court is invoked under 28 U.
S. C. § 1254(1).
The date on which the Louisiana Supreme Court decided the case was March
24, 2016 and on October 29, 2018 and the jurisdiction of this Court is invoked under
28 U. S. C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved in this case.
U. S. Constitutional Amendment VI. Rights of the accused.
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defence.
U. S. Constitutional Amendment XIV. Sec. 1. [Citizens of the United States.l
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of

2

life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Louisiana Constitution Art. I. § 2, Due Process of Law
No person shall be deprived of life, liberty, or property, except by due process of law.
Louisiana Constitution Art. I, $ 13. Rights of the Accused,
When any person has been arrested or detained in connection with the
investigation or commission of any offense, he shall be advised fully of the reason for
his arrest or detention, his right to remain silent, his right against self-incrimination,
his right to the assistance of counsel and, if indigent, his right to court appointed
counsel. In a criminal prosecution, an accused shall be informed of the nature and
cause of the accusation against him. At each stage of the proceedings, every person is
entitled to assistance of counsel of his choice, or appointed by the court if he is
indigent and charged with an offense punishable by imprisonment. The legislature
shall provide for a uniform system for securing and compensating qualified counsel
for indigents.
Louisiana Constitution Art. I, $ 16, Right to a Fair Trial
Every person charged with a crime is presumed innocent until proven guilty
and is entitled to a speedy, public, and impartial trial in the parish where the offense
or an element of the offense occurred, unless venue is changed in accordance with
law. No person shall be compelled to give evidence against himself. An accused is
entitled to confront and cross-examine the witnesses against him, to compel the
attendance of witnesses, to present a defense, and to testify in his own behalf.

3

However, nothing in this Section or any other section of this constitution shall
prohibit the legislature from enacting a law to require a trial court to instruct a jury
in a criminal trial that the governor is empowered to grant a reprieve, pardon, or
commutation of sentence following conviction of a crime, that the governor in
exercising such authority may commute or modify a sentence of life imprisonment
without benefit of parole to a lesser sentence which includes the possibility of parole,
may commute a sentence of death to a lesser sentence of life imprisonment without
benefit of parole, or may allow the release of an offender either by reducing a life
imprisonment or death sentence to the time already served by the offender or by
granting the offender a pardon.
Louisiana Constitution Art. L § 19. Right to Judicial Review
No person shall be subjected to imprisonment or forfeiture of rights or property
without the right of judicial review based upon a complete record of all evidence upon
which the judgment is based. This right may be intelligently waived. The cost of
transcribing the record shall be paid as provided by law.
28 U.S.C. 2254: (a):
The Supreme Court, a Justice thereof, a circuit judge, or a district court shall
entertain an application for a writ of habeas corpus in behalf of a person in custody
pursuant to the judgment of a State court only on the ground that he is in custody in
violation of the Constitution or laws or treaties of the United States.

4

STATEMENT OF PROCEEDINGS
Appellant was convicted on February 27, 2014. He was sentenced on March 10,
2014, at which time a motion for new trial was entered and denied. He appealed the
conviction to the La. Fifth Circuit Court of Appeal1 and on April 15th, 2015 the court
denied Appellant’s appeal.2 Appellant filed an Application for Writ of Certiorari to
the Louisiana Supreme Court3 and on March 24th, 2016 was denied.4 On December
15th, 2016 Appellant timely filed an Application for Post-Conviction Relief to the 24th
Judicial District Court of Louisiana.5 On February 1st, 2017 the 24th Judicial District
Court denied Appellant’s Application for Post-Conviction Relief.6 On March 3rd, 2017
Appellant filed an Application for Supervisory Writ of Review to the Fifth Circuit
Court of Appeals.7 On April 4th, 2017, the Fifth Circuit Court of Appeal denied
Appellant’s application.8 The Appellant counsel then timely filed an Application for
Writ of Certiorari to the Louisiana Supreme Court.9 Lack of communication by
retained counsel necessitated I file pro se, albeit untimely.10
Louisiana Supreme Court denied Appellant’s application.11

Exhibit 1: Original & Pro se Briefs. See Volume Two.
2 Exhibit 2: Appendix I Denial of Writ. See Volume One.
3 Exhibit 3: Writ of Certiorari. See Volume Two.
4 Exhibit 4: Appendix H: Denial of Certiorari. See Volume One.
5 Exhibit 5: PCR Application and Memorandum. See Volume Two.
6 Exhibit 6: Appendix G: Denial of PCR. See Volume One.
7 Exhibit 7: Writ to LA 5th Circuit. See Volume Two.
8 Exhibit 8: Appendix F: Denial of Writ. See Volume One.
9 Exhibit 9: Supervisory Writ of Review. See Volume Two.
10 Exhibit 10: Appendix E: Denial of Writ See Volume One.
11 Exhibit 11: Appendix D: Denial of Writ. See Volume One.
i

5

Ultimately, the

Appellant filed an Application and Petition under 28 U.S.C. § 2254 for a Writ
of Habeas Corpus with exhibits in the instant matter.12 The State filed an answer
and Petitioner sought an index of contents under Rule 5,13 which was dismissed with
reasons.14On September 6, 2019, in his report and recommendation, the Magistrate
Judge denied Appellant’s § 2254 petition with prejudice.15 Petitioner filed objection
to the Report and Recommendation on November 6, 2019. On July 22, 2020,16 the
United States District Court for the Eastern District of Louisiana adopted the
Magistrate Judge’s Report and Recommendation.17 Thereafter, Appellant timely filed
Notice of Appeal,18 asking the Fifth Circuit Court of Appeals to issue a Certificate of
Appealability.19
On April 1, 2021, the U.S. Fifth Circuit Court of Appeals denied his application
for Certificate of Appealability.20 Petitioner now comes before this Honorable Court
seeking its discretion and imploring it to consider the reasons and grant Certiorari.
STATEMENT OF THE CASE
On February 27, 2014 Petitioner was found guilty of Attempted Aggravated
Rape, La R.S. 14:27.42 and Pornography Involving Juveniles, 14:81.1, the court
imposed one sentence of fifteen (15) years at hard labor for the Attempted Aggravated
Rape. Concerning Distribution of Pornography Involving Juveniles, the court imposed

12 Exhibit 12: 28 §2254 Application and Petition. See Volume Three.
13 Exhibit 13: Leave and Motion seeking Index. See Volume Three.
14 Exhibit 14: Dismissal of Motion for Index. See Volume Three.
15 Exhibit 15: Magistrate Report and Recommendation. See Volume Three.
16 Exhibit 16: Appendix C: Objections to Report and Recommendations. See Volume One.
17 Exhibit 17: Appendix B: District Court Adoption of R & R. See Volume One.
18 Exhibit 18: Notice of Appeal. See Volume Three.
19 Exhibit 19: Memorandum Seeking COA. See Volume Three.
20 Exhibit 20: Appendix A: Denial of COA. See Volume One.
6

ten (10) years for count two, ten (10) years for count three and ten (10) years for count
four, all to run consecutively. For count five, Possession of Pornography Involving
Juveniles, the court imposed a five (5) year sentence and ordered it to run concurrent
with the others and gave Movant credit for time served.
REASONS FOR GRANTING THE WRIT
(a) The State of Louisiana has departed from the usual course of judicial
proceedings and the United States Fifth Circuit Court of Appeals has
accepted and sanctioned such a departure by the lower court, as to call for
an exercise of this Courts supervisory power.
(b) The State Court and the United States Fifth Circuit Court of Appeals has
decided an important question of federal law that has not been, but should
be, settled by this Honorable Court.
OVERTURE
Respectfully, I Gary L. Workman, Petitioner, am a layman of law and do not
proclaim to be a peer of this Honorable Court, nor do I come before this Honorable
Court presumptuously. It is with great humility I pray you will consider the
subsequent claims and persuasions.
CLAIMS
The conviction was obtained in violation of the Fifth, Sixth and Fourteenth
Amendments of the U.S. Constitution. The right to obtain testimony of witnesses and
compel their attendance is fundamental element of due process and Petitioner was
denied these substantial rights through counsel’s deficient representation.

7

PERSUASIONS
Both State and Federal Courts opined that I had failed to make “a substantial
showing of the denial of a constitutional right.”
The Fifth Circuit Court of Appeals deemed earlier claims abandoned but, all
claims are subsumed in the ineffective assistance claim itself. The State’s case relied
on the credibility of government witnesses and my defense was dependent on the
findings of a retained computer expert, D. Wesley Attaway, to challenge the
credibility of these witnesses. My constitutional right to confrontation as well as my
right to compel witnesses in my behalf was violated due to ineffective assistance of
counsel and this ineffectiveness of counsel is the reason the State court record is
insufficient for a full and fair review of the issue.
Certain exhibits and/or documents herein, which have been discovered through
due diligence and, as a direct result of ineffective assistance of counsel were not
preserved in the state court record or available for state court review, are now
presented to support the petition:
I had recently moved from Birmingham, Alabama to New Orleans, Louisiana.
I had a fiancee but, lived alone. Out of boredom, I placed ads on several adult websites
and while online one evening, I was contacted via chat request by a man who hailed
from New Zealand using the name, Koala. This man sent me several photos
containing child pornography. Once discovering the content of the files, I deleted
them and believed that was the end of it.

8

One of the ads I posted was titled; “Somebody’s daughter”. I said “every woman
is somebody’s daughter, and the word woman was used as the qualifying term.
Several people contacted me through this ad and some did misconstrue it. One of
these was a man who called himself, “Ron Anderson”. He talked about his elevenyear-old daughter and his desire to have someone break her in. He sent two photos
that were not deemed child pornography. I assumed this was fantasy chat, however,
in case anything arose later, I saved the emails to prove I had no desire to participate.
Another ad was titled “Something Taboo”, because New Orleans is rich in
voodoo and such. As I said, I was new to the area and interested in the history and
culture of the city. A man contacted me on “Taboo” with the user name “Endavin” and
wanted to meet in person. At first I refused, but on his fourth or fifth letter he told
me he didn’t want to keep riding around drinking. I was six years sober and attending
Alcoholics Anonymous (A.A.), so I was concerned that his drinking may be rooted in
what he had to share. The program of A.A. tells us to reach out to others who still
suffer, so I finally agreed to meet in person.
Although wary, I allowed him to my apartment. He said he was twenty-eight
years old and told me about his father forcing him and his sister to begin having sex
when they were ages seven and five. He also said his father forced them to have sex
with him too. I told him I am in A.A., but that I was sure there was a 12-Step program
for people who have suffered that kind of abuse.
A few weeks later he contacted me again and asked to speak. Not as distrustful
now I allowed him over. Why he chose to open up to me I can’t say, but he told a

9

disturbing story about his friend who had a five-year-old daughter and that he, the
friend and the girl’s eleven-year-old brother were all sexually molesting her. He also
told me how he enjoyed listening to her scream while abusing her. I told him I wasn’t
into anything like that and he left and never wrote again.
A few weeks later a man named “Seattle-38 Hot Top Boy” contacted me. He
made it pretty clear that he was into child exploitation and that he enjoyed hurting
children. I tried to get more information from him and told him “I met a guy that said
he was doing a five-year-old girl.” “Seattle” responded by saying, “Is his name
“Endavin?” I deduced that these two men knew each other and that this may be
“Endavin’s” abusive father. If they lived where they claimed to, these two people lived
over sixty miles apart, so it wasn’t happenstance that he would know about the little
girl or “Endavin”. When I tried to get more information, he made an ominous remark
and I broke contact. He tried to re-establish communication, but I refused to respond.
Realizing there was a grave probability this was no hoax, I made a conscious
decision to contact the police. Like everyone, you are asking why I didn’t call police
right then. I wanted to make sure I had enough reliable information before I did and
to ensure the safety of my family. As I said, “Endavin” knew where I lived and could
inform “Seattle”. I didn’t want to put my fiancee or, this child in added danger
The next day I began searching for a house away from the city. My search
covered areas which I considered desirable and within driving distance from my job
and my fiancee. I made a decision and on April 6, 2012, my fiancee and I drove to
Picayune, Mississippi and began closing on a home. Because April 6, 2012 was Good

10

Friday, I spent Easter weekend at my fiancee’s house, who lived fifty-miles north of
New Orleans, Louisiana, using her computer to send emails concerning this business.
This investigation began on March 8, 2012 and I was arrested on April 9, 2012
by FBI Special Agent Jamie Hall and Kenner, Louisiana Police Detective Jessica
Cantrell, (now Zuppardo) It was during the period of searching for a safe haven that
I was contacted by FBI Special Agent Jamie Hall.
Detective Zuppardo testified at trial that a complaint came in about my ad on
Craigslist. She said this complaint was not taken by her, but was relayed to her by
someone else.21 During preliminary examination and trial Agent Hall said this
investigation began when Detective Zuppardo received a complaint about my ad.
22 23 i am enclosing as exhibit all the police reports and the affidavit for the search
warrant to show that this complaint was fabricated as a contingency against any
constitutional violation which might arise. The reports, written on several dates, say
nothing about a complaint, only that Zuppardo saw my ad and called Hall, who began
an undercover investigation.24
On June 8, 2012, Jefferson Parish Sheriffs Detective Jason Rivarde re-booked
me on four counts of possession of child pornography. There are two contradicting
reports by Rivarde and neither mention this complaint to Zuppardo. On June 13,
2012, five days after charging me with possession of child pornography, Rivarde came
to the jail to question me about emails found on my computer. One of these emails

21 Exhibit 21: Zuppardo Testimony concerning Complaint. Pg.178 -180
22 Exhibit 22: Hall Preliminary Testimony Excerpt. Page 5...............
23 Exhibit 23: Hall Trial Testimony Excerpt. Page 163......................
24 Exhibit 24: Police Reports & Search Warrant (Nine total)..............
11

See Volume Four.
.See Volume Four.
See Volume Four.
.See Volume Four.

was found in the “Ron Anderson” file and was specifically associated with the man
“Endavin” and the five-year old girl.
Rivarde came to question me without securing my request for counsel,
although Mr. Vedros knew about this illegal interrogation and the nature of the
reason for the detective’s visit.25 26 Rivarde was an arresting officer and counsel did
not subpoena him and protect my Fifth Amendment right to confrontation. He knew
Rivarde had emails to support my story about the man abusing the five-year-old girl
and these emails held correspondence proving I never shared photos with “Ron
Anderson”, and that I never had nor never intended to exploit a child in any way.
Hall and Zuppardo testified I gave an unrecorded statement in which I
admitted to sharing child pornography with others, and that I admitted I was going
to the location to have sex with a twelve-year-old girl. Hall also testified that I
admitted to sending a photo of my own niece getting out of the shower and that he
had the name of this niece. I enclose the Report from D. Wesley Attaway27 as evidence
I was never sharing child pornography prior to the government intrusion and an
affidavit from my sister, Karen Dixon,28 to prove Hall’s testimony concerning my
niece was also untruthful.
Agent Hall testified that he intentionally sent a file during our correspondence
containing actual child pornography. At the preliminary hearing he was asked if the
file contained pornography. He evaded the question and merely said the file wouldn’t

25 Exhibit 25:
26 Exhibit 26:
27 Exhibit 27:
28 Exhibit 28:

Rivarde’s Visit................................................
Detective Rivarde’s Visit, Transcripts............
Computer Expert D. Wesley Attaway Report.
Affidavit from Sibling

12

Pg.458.
.Pg. 465.

See Volume Four
See Volume Four.
See Volume Four.
See Volume Four.

open.29 Then at trial, Assistant D.A. James Meyers illuminates the fact Agent Hall
sent child pornography,30, not nudes31 through interstate commerce and that he sent
it first. Hall said the file would not open but, to know the contents of a file, agent Hall
would have to open it, either to view it or to load the illicit material for mailing.
Furthermore, why would you put anything in a file if it has no function? It is no
different than sending a fake bomb. Hall intended to send child pornography and
under 18 USC §2252, it is a federal violation to send child pornography bv any means.
including by computer. (Please note this file was sent on April 5, 2012).
Agent Hall said he had an arrest warrant based on a photo sent to him on April
5, 2012.32 The record is void of any warrant for my arrest. However, the expert’s
report proves that a photo was sent on April 7, 2012, not April 5, 2012. The FBI was
at my apartment on April 6, 2012,33 the same day I was in Picayune, Mississippi
closing on a home. There was no arrest warrant, because no crime had been
committed, unless you count the child pornography Agent Hall sent me first.
FBI Special Agent Lawrence Robinson’s testified he didn’t do a real forensic
examination of the hard drive, so he wasn’t in a position to say whether the photos
were deleted manually or by the computer itself. And, he couldn’t say if the user knew
if they were still on the computer or not. Agent Robinson testified that one image was
in the recycle bin.34 The computer expert, D. Wesley Attaway, stated in his report one

29 Exhibit 29: Preliminary Testimony concerning Fake File. Transcript
30 Exhibit 30: Hall Admits Fake File is Child Pornography Transcript
Transcripts
31 Exhibit 31: D.A. Illuminates Fake File; Lines 3&4
Transcript
32 Exhibit 32: Hall Said Arrest Warrant Issued...........
33 Exhibit 33: FBI Surveillance Photos April 6, 2012.
Transcript
34 Exhibit 34: One Image in Recycle Bin

13

Page.8
Page 329
.Page 385
.Page 335
Page 288

See Volume Four.
See Volume Four.
See Volume Four.
See Volume Four.
See Volume Four.
See Volume Four.

photo was in the recycle bin and that it was the same photo that had been mailed on
April 7, 2012.
Defense counsel, George Vedros, told the jury in opening statements they
would hear from an expert who would testify that these photos could still be on the
computer and the user not know it.35
The U.S. District Judge, Jane Triche Milazzo, in adopting the Report and
Recommendation said in doing so; the Court specifically addresses Petitioner's
objection regarding his counsel's failure to subpoena an available expert witness at
his trial. The Court notes that the expert report at issue agreed that the prosecution's
report was "very accurate."
The computer expert, D. Wesley Attaway, found the prosecution’s report very
accurate and the prosecution’s report showed only one photo was sent. Exculpatory
evidence was available and counsel had a duty to examine the police and prosecution
reports and conduct an independent investigation into the State’s evidence.
York v. Ducart, 736 Fed. Appx. 628; 2018 U.S. App. LEXIS 14571, (U. S.
9th Cir., June 1, 2018) {736 Fed. Appx. 630} Trial counsel's failure to
review the evidence obtained by law enforcement, turned over to him by
the prosecution, and later located in his own case file, was deficient
performance. "[C]ounsel has a duty to make reasonable investigations
or to make a reasonable decision that makes particular investigations
unnecessary." Strickland, 466 U.S. at 691. Counsel's investigation
"should always include efforts to secure information in the possession of
the prosecution and law enforcement authorities." Rompilla v. Beard,
545 U.S. 374, 387, 125 S. Ct. 2456, 162 L. Ed. 2d 360 (2005) (quoting 1
ABA Standards for Criminal Justice 4-4.1 (2d ed. 1982
Supp.)).5 Inherent in "securing]" that evidence is the obligation to
review it-that is, to "make some effort to learn the information in the
possession of [those] authorities." Id. at 387 n.6 (emphasis added).

35 Exhibit 35: Opening Statements

Page 17

14

See Volume Four.

On the day of trial, the state charged me with three counts of distribution of
child pornography by amending counts 2, 3, and 4 on the bill of information from
possession of child pornography to distribution of child pornography and also
amended the dates on counts 2, 3, and 4 from April 9, 2012 to April 5, 2012.36
FBI Agent Hall admitted he sent a file containing actual child pornography on
April 5, 2012. The surveillance photos show that he and other FBI agents came to my
apartment on April 6, 2012. If counsel had conducted an independent investigation
into the prosecution’s file he would have found that only one photo was ever sent from
my computer and that this photo was sent on April 7, 2012, after the April 6, 2012
visit by FBI and not on April 5, 2012 as the state claimed.
If counsel had conducted a reasonable investigation, he would have learned the
FBI, along with Europol, was involved in an investigation code named “Koala”.
United States v Campbell, 738 F. Supp. 2d 960, 964, (8th Cir. August 26, 2010). And
around this same era, there was an investigation by the Leon County, Florida
Sheriffs Office called, “Travelling Man”, in which Leon County, Florida Sheriffs
Detective Melinda McBride posed as a thirteen-year old girl, “coincidentally” named,
“Melissa Anderson.” U.S. VDuke; 2013 U.S. Dist. LEXIS 11752. The coincidence of
these people indiscriminately contacting Petitioner is suspect.
When counsel is tolerable to the manipulation of evidence in such a way that
renders the state court record insufficient, ineffective attorneys will always prevail
while indigent defendants convicted in state courts are denied the right to federal

iSee Volume Four.

36 Exhibit 36: Amended Bill of Information.

15

review of claims concerning ineffective assistance of counsel and other constitutional
violations. The State of Louisiana denied my claims as speculative and conclusory
but, I was never afforded an evidentiary hearing to develop the record.
The adjudication of the claim resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States. (28 § 2254 (d)). The state
court ruled on the merits of the claim and rendered their decision based on an
insufficient state court record.
When the state answered my claims in state and federal court, they referred
to evidence mentioned in testimony by the state as rebuttal to the defense’s assertions
presented during voir dire. The state said this information was seized property and
available to the defense in open file discovery concerning 184 photos. However, this
unsubstantiated testimony during voir dire was never quoted in the answer and I
was not provided with voir dire when I was allowed to borrow during direct appellate
review. A party seeking to introduce evidence over an objection bears the burden of
showing that it is relevant. Contrary to the State’s answer, the erotica photos were
published to the jury37and over objection,38 without going through the balancing test
of La. C. Cr. P. art. 403 or Federal Rule 403 concerning relevancy of evidence. If
counsel had investigated the police and prosecutors report he would have known the
state intended to use this inadmissible and prejudicial evidence. There was no
hearing to put me on notice concerning the use of this evidence.

37 Exhibit 37: Erotica Published to Jury...
38 Exhibit 38: Objection to Erotica Photos

.Transcript Page 249
Transcript Page 255
16

See Volume Four.
See Volume Four..

The state said I failed to offer any affidavit from my computer expert to
warrant an evidentiary hearing. The computer expert, hired by the indigent defender
board, submitted a report to counsel and in this report the expert said he found the
prosecution’s report very accurate. Either counsel disobeyed the rules of discovery or,
the state has retracted this from the state court record. The Magistrate conceded in
his Report and Recommendation that discovery had been satisfied, however, I
obtained a copy of this expert’s report just prior to filing my federal habeas petition.
Under requirements of Rules Governing Section 2254 Cases in United States
District Courts 1,5,11 Federal Rule of Civil Procedure 5(a), 10(c), 81(a) (2). The State
is required to serve its answer, including Exhibits, on the Petitioner. The state of
Louisiana failed to follow the rule(s) and I did seek an index of all exhibits and
transcripts used as rebuttal by the state in their answer, however, the U. S. Eastern
District Court of Louisiana denied my request.39
This Honorable Court ruled in Cullen u. Pinholster, 563 U.S. 170, 200, 131 S.
Ct. 1388, 1409-10, 179 L. Ed. 2d 557 (2011), Review of state prisoner's federal habeas
corpus claim under 28 U.S.C.S. 2254(d)(1) held to be limited to record that had been
before state court that adjudicated claim on merits.
I was not provided an index of contents of the relevant transcripts as required
under Rule 5 Governing Section 2254 Cases and the state’s use part of the record
while withholding it from me tipped the Scales in the state’s favor by not allowing me
to rebut the allegations. This denied me the right to a full and fair judicial review.

39 See Volume Three; Exhibits 13 & 14.
17

I submitted a motion to replace counsel due to Mr. Vedros’ indifference to my
requests for an investigator and computer expert.40 Lampooning the role of advocate,
Mr. Vedros informed the court that a computer expert had been retained. The motion
to replace counsel was denied and Vedros was basically given unrestrained apathy.
After this hearing, I began writing the Louisiana Disciplinary Counsel41 and the
Indigent Defender’s Board, documenting events.42
If the jury had heard testimony that only one photo had been sent, they would
have discovered that the government witnesses had been untruthful. This testimony,
contrary to the evidence, would have raised an actual and substantial doubt
concerning all the State’s evidence and testimony. Instead, counsel asked for a jury
instruction of entrapment.
I was prejudiced by trial counsel's failure to review the material in the
prosecution’s report and, in turn, to introduce the evidence at trial. Had counsel
subpoenaed the expert to testify and introduce this exculpatory evidence, it would
have altered the entire evidentiary picture before the jury, resulting in "a reasonable
probability that... at least one juror would have harbored a reasonable doubt. Buck
v. Davis, 137 S. Ct. 759, 776, 197 L. Ed. 2d 1 (2017).
In Taylor v. Vannoy, 2018 U.S. LEXIS 4709 (U.S., Oct. 1, 2018), The U. S.
District Court in the Eastern District of Louisiana, granted a Certificate of
Appealability (COA) on a single issue - whether Taylor's constitutional right to

See Volume Four.
See Volume Four.
See Volume Four.

40 Exhibit 39: Hearing on Motion to Replace Counsel
41 Exhibit 40: Letters to Disciplinary Counsel.
42 Exhibit 41: Letters to Indigent Board Director.

18

compulsory process to call a witness was violated. I was deprived the same
fundamental right, however, the U. S. District Court in the Eastern District of
Louisiana denied a COA although I presented the same issue.
The record is barren as to the reasons for the denial of compulsory process. The
cause is immaterial. It is the resulting failure to compel the expert, Mr. Attaway, to
testify, which is unconstitutional. The right to compulsory process is "fundamental
and essential to a fair trial," Washington v Texas, 388 U. S. 14 at 17, 87 S. Ct. 1920
at 1922; and it is a necessary correlative of due process of law: Louisiana law also
guarantees this right to petitioner. La. Const. Art. 1, 9; C. of Crim. P., Art. 731.
The State published 184 images they claimed were used as rebuttal from
defense statements in voir dire. No transcript of this voir dire statement has been
produced to confirm the allegation. These images were never put before the court to
undergo the balancing test under both state and federal rules concerning other crimes
evidence. Also, the Magistrate’s Report and Recommendation stated counsel failed
to make a timely contemporaneous objection, however, an objection was made. It is
the State that failed to make a contemporaneous objection at the voir dire, precluding
the use of this evidence as rebuttal to any defense statements.
Petitioner was denied a full, fair review in state and Federal court when the
state court reached an unreasonable decision and denied Petitioner relief based on
voir dire evidence which was not presented in the State court record of proceedings.
The Magistrate ordered the State to answer Petitioner’s §2254 petition and to include
transcripts of all proceedings held in state court. Petitioner sought an index of the

19

documents to refute the state’s claims, but was denied. The Magistrate said the State
did not cite any portions of the state court record, other than the opinions and orders
of the state trial court. The state never produced transcripts of the voir dire to
substantiate the claim, but the record does contain a timely contemporaneous
objection by counsel to the evidence.43 The State rule and balancing test concerning
other crimes evidence is not independent of Federal rule. If a criminal defendant is
bound to review by a federal court based on the state court record, then the state is
bound by the same rule of law in reaching its conclusion in granting or denying relief.
Petitioner asserts he has met both prongs of Strickland v. Washington, 466
U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), where the prosecution’s report held
material evidence of innocence and counsel’s failure to examine the evidence, file a
motion to suppress this evidence and subpoena the expert witness to testify to his
findings was unreasonable and I was prejudiced by his deficient performance.
CONCLUSION
Petitioner, Gary L. Workman, prays this Honorable Court will agree that the
nexus of his conviction and the incomplete state court record for review are due to
ineffective assistance of counsel and appellate counsel and that these issues are
debatable among reasonable jurists. He further prays a that this Honorable Court
will grant Writ of Certiorari and remand this to the district court for an evidentiary
hearing to expand the record to allow Petitioner a full and fair judicial review.

Gary L. Workman
43 See Exhibit 38: Objection to Erotica Photos

Transcript Page 255
20

See Volume Four.

